               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




           U.S. Postal Service Pay for
             Performance Program

               Management Advisory




                                              June 3, 2013

Report Number DP-MA-13-001
                                                                            June 3, 2013

                                                                  U.S. Postal Service
                                                       Pay for Performance Program

                                                        Report Number DP-MA-13-001



BACKGROUND:
The U.S. Postal Service’s Pay for           a national system for evaluating
Performance (PFP) Program enables           individual achievements determined by
the Postal Service to set strategic goals   the employee and his or her supervisor.
and measure supporting performance          However, effective October 5, 2012, the
objectives throughout the organization.     core requirement portion was
These performance metrics are aligned       discontinued for most PFP participants.
to measure performance at corporate,
functional unit, and individual employee    Our objective was to determine how
levels.                                     PFP metrics were developed and
                                            measured and whether they are aligned
The Postal Service froze pay increases      with the Postal Service’s strategic goals.
for fiscal years (FY) 2011 and 2012 due
to financial difficulties and has yet to    WHAT THE OIG FOUND:
decide whether to grant pay increases in    The Postal Service clearly and
FY 2013. However, in the past, the PFP      accurately documents how it develops,
Program has been the sole source of         measures, and approves its PFP
annual pay adjustments for                  metrics. However, current Postal
non-bargaining unit employees,              Service PFP metrics do not directly
including Postal Service executives. If     support all of the agency’s strategic
pay increases are reinstituted, the         goals or, specifically, the postmaster
program again may be used in this           general's four core business strategies
capacity.                                   (and sub-objectives) created to return
                                            the Postal Service to profitability. If the
The program included two parts: the         Postal Service addresses this issue, it
National Performance Assessment and         could increase productivity towards its
the core requirement or individual          strategic goals.
performance metrics within the
Performance Evaluation System. The          WHAT THE OIG RECOMMENDED:
National Performance Assessment             We recommended evaluating the
provides a standardized method for          current performance metrics and
assessing performance within the Postal     developing performance metrics that
Service on a national and local level and   better support the Postal Service’s
reporting on weighting factors and          strategic goals.
timeframes for key performance metrics.
The Performance Evaluation System is        Link to review the entire report
June 3, 2013

MEMORANDUM FOR:            JEFFREY C. WILLIAMSON
                           CHIEF HUMAN RESOURCES OFFICER AND EXECUTIVE
                           VICE PRESIDENT

                           STEPHEN J. MASSE
                           VICE PRESIDENT, FINANCE AND PLANNING




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial and Systems Accountability

SUBJECT:                   Management Advisory – U.S. Postal Service Pay for
                           Performance Program (Report Number DP-MA-13-001)

This report presents the results of our review of the U.S. Postal Service Pay for
Performance Program (Project Number 12BG004FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin H. Ellenberger, director,
Data Analysis and Performance, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Joseph Corbett
    Thomas J. Marshall
    Corporate Audit and Response Management
U.S. Postal Service Pay for Performance Program                                                                    DP-MA-13-001




                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Progress Toward the Strategic Goals of the Postal Service ............................................ 2

Performance Metrics Best Practices ............................................................................... 5

Recommendation ............................................................................................................ 6

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology .......................................................................... 11

   Prior Audit Coverage ................................................................................................. 11

Appendix B: Management's Comments ........................................................................ 12
U.S. Postal Service Pay for Performance Program                                                    DP-MA-13-001



Introduction

This report presents the results of our review of the U.S. Postal Service Pay for
Performance (PFP) Program (Project Number 12BG004FF000). The objective of our
review was to determine how PFP performance metrics were developed and measured
and whether performance metrics were aligned with the Postal Service’s strategic goals.
This self-initiated review addresses strategic risk. See Appendix A for additional
information about this review.

The Postal Service froze PFP pay increases for fiscal years (FY) 2011 and 2012 due to
the financial difficulties and has yet to decide whether to grant pay increases in
FY 2013. 1 In a May 7, 2012, memorandum, the Postal Service stated that if the federal
government freezes wages for federal employees in FY 2013, it will suspend PFP pay
increases. On March 26, 2013, U.S. government lawmakers extended the current
freeze on federal civilian workers’ pay for a third consecutive year.

The Postal Service's PFP Program has been the sole source of annual pay adjustments
for about 58,000 non-bargaining unit employees ― which includes all Postal Career
Executive Service (PCES) employees and the majority of Executive and Administrative
Schedule (EAS) employees. 2 If pay increases are reinstituted in the future, they may
once again be used in this capacity. The intent of the PFP Program is to emphasize the
organization’s success through objective, measurable performance metrics. These
performance metrics are aligned to measure performance at the corporate, functional
unit, and individual employee levels.

The PFP Program measures performance for non-bargaining employees in both EAS
and PCES 3 groups, as shown in Table 1.

                       Table 1. Number of PFP Participants in FY 2011 4

                                                                                   Number of
                       Postal Service Employee Type                               Participants
               EAS employees                                                             57,100
               PCES executives                                                              622
               Total                                                                     57,722
             Source: Postal Service Human Resources.




1
  Future salary increases are determined by Postal Service management after consulting with the two postmaster
management associations – the National Association of Postmasters of the U.S. (NAPUS) and the National League
of Postmasters (NLPM) – and with the National Association of Postal Supervisors (NAPS).
2
  For this report, PCES refers to all executives other than officers.
3
  The postmaster general has the authority to decide on PCES salary compensation increases and policy, with input
from the chief human resource officer. In addition, PCES compensation is governed by the compensation policy for
executives and includes a performance matrix similar to officers and EAS. The officer’s compensation policy is
outlined in the Annual 10-K report.
4
  Data are from the Postal Service Human Resources Compensation group.
                                                            1
U.S. Postal Service Pay for Performance Program                                                       DP-MA-13-001




The PFP Program was comprised of two parts: the National Performance Assessment
(NPA) and the Performance Evaluation System (PES). 5 NPA tracks organizational
performance using different measures from its various business and operational
processes and uses these measures to establish corporate and unit level performance
results to develop employee evaluations. The Postal Service’s PFP Program was also
comprised of 10 corporate NPA performance metrics, 51 unit NPA performance metrics,
and 306 individual or PES core requirement performance metrics. A participant was
evaluated on a combination of these performance metrics using a tool called the
balanced scorecard. 6 On October 5, 2012, the core requirement portion was
discontinued for most of the PFP participants. 7 Specifically, the employee’s rating will be
based on his or her performance that is measured against NPA corporate and unit
performance metrics with a 60/40 percentage weighting, respectively.

Postal Service management stated that the compensation salary increases for the PFP
Program were established to meet the mandates under the Postal Reorganization Act,
as outlined in 39 U.S.C. § 1004. Management determined that level six of the 15-level
rating system is set at a 'plan' achievement level for performance.

Conclusion

The Postal Service clearly and accurately documents how it develops, measures, and
approves the PFP performance metrics. However, the current Postal Service PFP
performance metrics do not support all Postal Service strategic goals, 8 specifically as
they relate to the four core business strategies created by the postmaster general in an
effort to return the Postal Service to profitability. If the Postal Service addresses this
issue, it could increase productivity towards its strategic goals.

Progress Toward the Strategic Goals of the Postal Service

The Postal Service PFP Program’s current performance metrics do not directly support
all strategic goals.




5
  The PES system was originally used within the PFP program to weight NPA organizational scores to individual core
requirements to determine an overall PFP rating. As of October 5, 2012, the PES system will continue to match NPA
organizational scorecards to individual employees and provide a venue for discussing performance issues during the
fiscal year.
6
  A scorecard is based on a participant’s functional area and position and includes all 10 corporate performance
metrics, and three to nine unit performance metrics. The U.S. Postal Service Office of Inspector General (OIG) report
2009 Pay for Performance Program (Report Number HR-AR-11-006, dated August 8, 2011) focused on the
participant’s core requirements.
7
  For FY 2012, the Postal Service eliminated core requirements for about 46,000 of 52,000 total EAS employee
participants.
8
  We based our conclusion on the following studies: Corporate Executive Board, Working Council for Chief Financial
Officers, Balanced Scorecard: Communicating Strategy Through Performance Measures, September 2000; and
Creating and Implementing the Balanced Scorecard, March 2001.


                                                          2
U.S. Postal Service Pay for Performance Program                                                      DP-MA-13-001



In FY 2011, the postmaster general created four core business strategies, with sub-
objectives, to return the Postal Service to profitability. 9 These four business strategies
are:

   Strengthening our business-to-consumer channel.
   Improving the customer experience.
   Competing for the package business.
   Becoming a leaner, faster, and smarter organization. 10

However, FY 2011 NPA performance metrics were not specifically mapped to the four
strategies but rather to four different goals:

   Enhancing performance-based culture.
   Increasing efficiency.
   Generating revenue.
   Improving service.

Whereas the NPA goals are related to the four core business strategies, the strategies
are more detailed and provide specific objectives that are not linked to current PFP
performance metrics. For example, there are no PFP performance metrics related
directly to the strategies of strengthening the business-to-consumer channel and
becoming a leaner, faster, smarter organization. In addition, the NPA goal of “increasing
efficiency” is related to the core strategy of “becoming a leaner, faster, and smarter
organization,” but the metric mapped to “increase efficiency” is total deliveries per hour,
which is an overall measure of efficiency within the Postal Service. There are no
performance metrics to measure the following subobjectives to the core strategy:

   Redesigning the operating network, infrastructure, and processes by reviewing retail
    office productivity and studying under-used offices for potential consolidation,
    closure, or conversion to a contract unit, as well as pursuing the reduction in the
    number of mail processing facilities.

   Implementing tools such as the Lean Six Sigma processes and training employees
    who work in teams to find ways to reduce waste, strengthen business processes,
    improve service, and provide a better customer experience.

   Continuing to reduce labor costs through reductions in employee costs.

Further, not all of the subobjectives for the core business strategies of improving the
customer experience and competing for the package business are covered by current

9
  DRIVE (Delivering Results, Innovation, Value, and Efficiency) is a management process the Postal Service is using
to improve business strategy development and execution. DRIVE is focused on a portfolio of 36 strategic initiatives
the Postal Service will implement to meet its ambitious performance and financial goals. The relationship between the
DRIVE initiative goals and the four core business strategies are very closely linked but do not have clear one-to-one
correspondence or are not clearly aligned to performance metrics.
10
   See Appendix A for additional information on the four core business strategies and sub-objectives.


                                                         3
U.S. Postal Service Pay for Performance Program                                                   DP-MA-13-001



PFP performance metrics. For example, the NPA goal of “enhance performance-based
culture” is related to the core strategy to “Improve the customer experience,” but the
metric is mapped to the goals of customer experience measurement, Occupational
Safety and Health Administration illness and injury rate, Equal Employment Opportunity
complaints per 100 employees vs. same period last year, and Voice of the Employee
survey. Only one of those metrics has to do with customer experience (customer
experience measurement). Also, there are no performance metrics to measure the
subobjective of the core strategy of offering customers convenience by increasing
access to our products and services and to maintain a position as a secure and well
respected service provider.

In addition, the majority of the Postal Service’s performance metrics measure day-to-
day operations and not the progress toward achievement of strategic business plans
and objectives. For example, six of the 10 corporate NPA performance metrics measure
mail delivery service standards and whether the Postal Service is achieving those
standards on an ongoing basis. Specifically, one of the mail delivery NPA performance
metrics measuring day-to-day operations is Priority Mail Service/Scan. 11 Another
example of a performance metric measuring day-to-day operations is Time and
Attendance Collection System (TACS) adjustments. 12 For many of the day-to-day
performance metrics, the Postal Service sets target goals by analyzing results from prior
years and charting them on a bell curve and making the average the target goal for the
year. This method of performance evaluation is designed to measure current
organizational performance rather than directing performance toward desired outcomes
such as strategic goals.

Furthermore, the NPA goal of 'improving service' is related to the core business strategy
to 'strengthen our business-to-consumer channel,' but the main metrics mapped to the
improve service goal are Priority Mail, Express Mail, First-Class Mail, and parcel select
service metrics, which measure on time delivery of those products. There are no metrics
in place to measure the subobjectives of the core strategy of introducing new platforms
and completing implementation of existing platforms to make it easier for small
businesses to develop direct mail campaigns and create and implement Every Door
Direct Mail, which enables local businesses to target potential customers by carrier
route. As a result, the Postal Service’s PFP Program does not effectively promote
strategic success. If the Postal Service revises its performance metrics based on the
Postal Service's Strategic Goals and Subobjectives listed in Appendix A, it might have
the opportunity to progress toward the achievement of strategic business plans and
objectives.




11
   The Priority Mail Service/Scan performance metric measures the percentage of Domestic Priority Mail Air and
                                   ™
Surface with Delivery Confirmation service, having a service standard of 1 or 2 days, which is delivered within
2 delivery days.
12
   The TACS adjustments performance metric tracks the percentage of pay adjustments made during a 2-week pay
period.


                                                        4
U.S. Postal Service Pay for Performance Program                                                    DP-MA-13-001



Performance Metrics Best Practices

According to our research, the Postal Service’s PFP measurement tool, also known as
a balanced scorecard, 13 can be a robust organization-wide strategic planning,
management, and communication system that aligns the work people do with an
organization’s vision and strategy. When effectively used, organizations using balanced
scorecards include performance measures that are linked to strategic goals. More than
60 percent of Fortune 500 companies use a balanced scorecard. For example, one of
them — a delivery service company — implemented an effective strategic scorecard by
having only four primary performance measures:

    Customer satisfaction index.
    Employee relations index.
    Competitive position (financial status and market share compared to competitors).
    Internal business processes (operations, such as time in transit).

The company implemented a performance metric only if it related to one or more of the
four strategic measures. After establishing this linkage, the company focused on
creating an alignment among all performance measures whereby measures at each
level would directly contribute to measures at the next higher level. Five years after
implementation, the company saw its profitability increase by 30 percent in 1 year alone
and another 40 percent the next year. Additionally, the company’s service reliability,
customer satisfaction, and employee relations improved.

Further, we found that companies that use strategic balanced scorecards reduced their
number of performance metrics to around 25 and aligned them to the strategic goals of
the organization. This enabled employees to focus their efforts on the organization’s key
strategic goals and not become distracted with too many goals and targets. 14

By contrast, companies that used balanced scorecards merely as a measure of
performance had hundreds of performance metrics. According to the Postal Service, its
PFP Program enables it to set strategic goals and measure supporting granular
performance objectives throughout the entire organization. However, as noted
previously, not all of the Postal Service’s strategic goals are covered by current PFP
performance metrics. Additionally, the PFP Program is designed to align objectives at
the corporate and unit organizational structures and link individual contributions to
organizational success. Consequently, the Postal Service has 61 different performance
metrics.

PFP management stated that the number of performance metrics has remained fairly
consistent since PFP inception. Management also stated that the number of

13
   A balanced scorecard combines non-financial performance measures with traditional financial measures to give
managers a more 'balanced' view of organizational performance. The Postal Service uses a balanced scorecard.
14
   Corporate Executive Board, Working Council for Chief Financial Officers, Balanced Scorecard: Communicating
Strategy Through Performance Measures, September 2000, and Creating and Implementing the Balanced
Scorecard, March 2001.


                                                        5
U.S. Postal Service Pay for Performance Program                             DP-MA-13-001



performance metrics in the PFP Program gives employees the opportunity to
concentrate on achievement within their control or influence and based on their
individual goals in the organization. However, based on our research, when an
organization uses too many performance metrics, it can reduce an employee’s vision of
the organization’s ultimate goals.

Recommendation

We recommend the chief human resources officer and executive vice president, in
coordination with the vice president, Finance and Planning:

1. Evaluate the current performance metrics and develop performance metrics that
   better support the Postal Service’s strategic goals.

Management’s Comments

Management disagreed with the finding but partially agreed with the recommendation
and stated that they will evaluate current performance metrics and consider changing or
adding metrics that more directly tie to the postmaster general’s four core business
strategies. Management stated they will complete this corrective action by
January 31, 2014. Additionally, management requested that edits be made to the report
to more accurately reflect the PFP Program.

See Appendix B for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
corrective actions should resolve the issue identified in the report. Additionally,
management requested that edits be made to the report to more accurately reflect the
PFP Program. We incorporated three of the four requested changes. Management
believed that the four core business strategies and the NPA performance metrics could
be brought more into alignment. As stated in the report, the FY 2011 NPA performance
metrics were linked and related to the four core business strategies; however, the core
strategies are more detailed and provide specific performance objectives that are not
linked to current PFP performance metrics.




                                                  6
U.S. Postal Service Pay for Performance Program                                                      DP-MA-13-001




                                Appendix A: Additional Information

Background

The PFP Program enables the Postal Service to set strategic goals and measure
supporting granular performance objectives throughout the entire organization.
Additionally, it is designed to align objectives at the individual level through the unit and
organizational structures and link individual contributions to organizational success. The
intention of the PFP Program is to provide an opportunity to reward non-bargaining
employees for achieving performance. Non-bargaining employees rely on successful
performance ratings for their annual pay increases and/or lump sum award.

The career non-bargaining unit employees eligible for the PFP Program are referred to
as either EAS employees or PCES executives. EAS employees include employees in
supervisory, professional, technical, clerical, administrative, and managerial positions;
PCES executives include area and field executives (including postmasters) and
headquarters and headquarters-related executives. A participant’s performance is
measured against a set of 10 corporate and 51 unit performance metrics. These
performance metrics are established and communicated to all participants at the
beginning of the fiscal year. A participant is evaluated on a combination of these
performance metrics (called a scorecard). A scorecard is based on a participant’s
functional area and position and includes all 10 corporate performance metrics and up
to 10 unit performance metrics. 15 The performance metrics scores are also weighted
differently because of the discontinuance of the core requirements for most of the PFP
participants on October 5, 2012. The Postal Service subsequently revised the weights
of the corporate and unit performance metrics.

Weights assigned to corporate results, unit results, and each corporate and unit
performance metric depend on the level of influence of the unit. Specifically, an area
vice president (representing control of postal operations in a multi-state area) may have
a performance rating weighted 100 percent on corporate goals; conversely, a local
postmaster may have a performance rating based on 20 percent of corporate goals and
80 percent of the performance of goals relative to his or her particular office. The end
result is 61 different NPA performance metrics and roughly 33,000 different scorecards
for about 58,000 participants. Management conducts mid-year performance reviews to
provide feedback and make recommendations for continuous improvement. At the
end of the fiscal year, the participant’s PFP score is calculated by summing the
participant's weighted NPA score. Each PFP score is associated to an adjective rating:
non-contributor, contributor, high contributor, or exceptional contributor.




15
   Corporate and unit summaries are combined for each of the participant’s pay packages, resulting in the employee’s
'composite summary.' The composite summary represents a percentage of the overall performance rating for the
employee.


                                                         7
U.S. Postal Service Pay for Performance Program                                 DP-MA-13-001




National Performance Assessment

The NPA system was designed to provide a standardized method for assessing
performance within the Postal Service on a national and field level and it reports on
metrics, weighting factors, and timeframes for key performance metrics. The Postal
Service implemented the NPA system to ensure that all management employees have a
direct stake in the success of the organization. NPA is a web-based system that collects
performance metric data, such as retail revenue and on-time Express Mail delivery,
from 50 separate source systems across the organization. Management uses these
data to calculate performance metrics scores that are included on scorecards used to
monitor the performance of the entire enterprise and individual units across the nation.

Each NPA performance metric has a sponsor and data source owner. Generally, the
sponsor is the headquarters’ department manager who maintains or monitors programs
and systems related to the performance metric. The performance metric sponsor also
ensures the integrity of the data systems and provides NPA with timely performance
metric scores each reporting period. The data source owner is the manager responsible
for the data system that generates scores for NPA reporting.

NPA targets or goals are set as NPA performance metrics evolve. When a corporate
NPA performance metric is initially established, data are collected and measured for the
first year based on input from area and district management officials, and from there the
performance metric goes through a test year during which the score does not count. An
NPA performance metric sponsor will review a couple years of measured data, and the
data results are placed in a bell curve or histogram to establish targets that are set as
stretch goals. Performance metric sponsors make recommendations on the targets to
the Postal Service executive leadership team (ELT). The targets stay the same unless
the performance metric sponsors recommend a change based on comments from area
finance managers or other organizational managers and their evaluation of the
suggestions and/or recommendations. In addition, the ELT may request a change to the
weight of an NPA performance metric. For example, a change may be made to take
5 percent of weighting from one NPA performance metric and apply it to another
performance metric. The chief financial officer will evaluate the input and make a
decision on whether to approve or deny a weighting factor change. The final approval
for corporate performance metrics is up to the Postal Service Board of Governors and
the ELT provides the final approval or denial for the unit performance metrics.

According to the Postal Service, by instituting these standardized, objective
measurements, the system has:

   Increased the objectivity of the PFP Program.

   Given employees access to their current performance data.




                                                  8
U.S. Postal Service Pay for Performance Program                                                          DP-MA-13-001



    Empowered employees to take a more active role in the tracking, improvement, and
     evaluation of their own performance.

Pay For Performance Program Historical Data

In 2004, the Postal Service implemented a 15-level performance measurement scale for
its PFP Program, known as the PFP reward matrix. An EAS employee’s overall PFP
performance rating correlates to a level on the matrix that is used to determine the
salary increase or level of compensation awarded. The PFP Program and its related
pay policies were developed consistent with various compensation mandates under the
Postal Reorganization Act, specifically provisions 39 U.S.C. §§ 1001 and 1004. Title 39
of the U.S.C. 16 requires the Postal Service to consult with the three postal management
associations. Then after giving full and fair consideration to any recommendations of the
management associations, the Postal Service makes a final decision on any changes to
be made. 17 The compensation salary increases for the PFP Program were established
to meet the compensation mandates under the Postal Reorganization Act as stated in
the following items:

    Maintain a standard of comparability to compensation in the private sector of the
     U.S. economy.

    Assure the attraction and retention of qualified and capable supervisory and other
     managerial personnel.

    Provide an adequate and reasonable differential in rates of pay between clerks and
     carriers and supervisory and other managerial personnel.

    Maintain a well-trained and well-motivated workforce to improve the effectiveness of
     postal operations.

    Promote the leadership status of supervisory and other managerial personnel with
     respect to rank-and-file employees.

Postal Service Strategic Goals and Sub-Objectives

Early in 2011 the postmaster general outlined four key strategies for the organization:

    Strengthen the business-to-customer channel.
    Improve the customer experience.
    Compete for the package business.
    Become a leaner, smarter, faster organization.



16
   Title 39 of the U.S.C. has additional compensation mandates that the Postal Service must consider, including pay
limits, federal retirement benefits, federal unemployment/injury compensation, and territorial cost-of-living allowances.
17
   The three different management association groups are NAPS, NAPUS, and the NLPM of the U.S.


                                                           9
U.S. Postal Service Pay for Performance Program                               DP-MA-13-001



The organization responded with initiatives to strengthen the Postal Service position,
such as:

   Strengthen our business-to-consumer channel by:

    o Introducing new platforms and completing implementation of existing platforms to
      make it easier for small businesses to develop direct mail campaigns.

    o Creating and implementing Every Door Direct Mail, which enables local
      businesses to target potential customers by carrier route.

   Improve the customer experience by:

    o Continuing to operate an extensive customer experience measurement program.

    o Offering customers convenience by increasing access to our products and
      services by introducing village post offices and increasing the number of
      partnerships with third-party retailers, thereby reducing customer dependence on
      traditional post offices.

    o Maintaining a position as a secure and well-respected service provider which, in
      a digital world where privacy and security are sometimes threatened, is
      becoming more important.

   Compete for the package business by:

    o Improving the reliability of package tracking by increasing the scan rate.

    o Making it easier for consumers and small businesses to use postal shipping
      services.

    o Offering competitive pricing for deliveries of small packages within short-range
      destination zones.

   Become a leaner, faster, and smarter organization by:

    o Redesigning the operating network, infrastructure, and processes by reviewing
      retail office productivity and studying under-used offices for potential
      consolidation, closure, or conversion to a contract unit, as well as pursuing the
      reduction in the number of mail processing facilities.

    o Implementing tools such as the Lean Six Sigma processes; and training
      employees who work in teams to find ways to reduce waste, strengthen business
      processes, improve service, and provide a better customer experience.

    o Continuing to reduce labor costs through reductions in employee costs.


                                                  10
U.S. Postal Service Pay for Performance Program                               DP-MA-13-001




Objective, Scope, and Methodology

The objective of our review was to determine how PFP performance metrics were
developed and measured and whether performance metrics were aligned with the
Postal Service’s strategic goals. To accomplish our objective, we reviewed Postal
Service handbooks and memorandums to determine current policies and procedures.
We interviewed unit personnel and Postal Service Headquarters, area, and district
management to obtain an understanding of current policies and procedures and noted
their comments, where appropriate. We researched studies and best practices for
benchmarking and comparison purposes.

We conducted this review from November 2011 through June 2013 in accordance with
the Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on April 9, 2013, and included their comments where appropriate.

We assessed the reliability of NPA and PFP data by interviewing postal officials
knowledgeable about the data. We determined that the data were sufficiently reliable for
the purposes of this report.

Prior Audit Coverage

The OIG issued a report titled 2009 Pay for Performance Program (Report Number
HR-AR-11-006, dated August 8, 2011) recommending the Postal Service better define
the relationship between NPA and core requirements, establish and implement
mandatory training for new and existing employees and managers on the process, and
evaluate the program's effectiveness of establishing and using behavioral core
objectives in the rating process. Management agreed with recommendations to define
the relationship between NPA and core requirements and evaluate program
effectiveness. They partially agreed with the recommendation related to training and will
consult with the management associations on changes to PFP policy and core
requirements.




                                                  11
U.S. Postal Service Pay for Performance Program                DP-MA-13-001



                           Appendix B: Management's Comments




                                                  12
U.S. Postal Service Pay for Performance Program        DP-MA-13-001




                                                  13
U.S. Postal Service Pay for Performance Program        DP-MA-13-001




                                                  14
